Office of Material Loss Reviews
Report No. MLR-10-002


Material Loss Review of Cape Fear Bank,
Wilmington, North Carolina




                                  October 2009
                                     Executive Summary

                                     Material Loss Review of Cape Fear Bank,
                                     Wilmington, North Carolina
                                                                                     Report No. MLR-10-002
                                                                                              October 2009

Why We Did The Audit

On April 10, 2009, the North Carolina Office of the Commissioner of Banks closed Cape Fear Bank
(Cape Fear) of Wilmington, North Carolina, and named the FDIC as receiver. On April 23, 2009, the
FDIC notified the Office of Inspector General (OIG) that Cape Fear’s total assets at closing were
$466.8 million and the estimated loss to the Deposit Insurance Fund (DIF) was $131 million. As required
by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of
the failure of Cape Fear.

The audit objectives were to (1) determine the causes of Cape Fear’s failure and resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of Cape Fear, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38.

Background

Cape Fear was a state-chartered nonmember institution established on June 22, 1998. The institution was
headquartered in Wilmington, North Carolina, and maintained seven other branch locations. Cape Fear
was a wholly owned subsidiary of the Cape Fear Bank Corporation, Inc., a one-bank holding company.
Cape Fear engaged principally in commercial real estate (CRE) and acquisition, development, and
construction (ADC) lending within its local marketplace.

Audit Results

Causes of Failure and Material Loss

Cape Fear failed because its Board and management did not implement effective risk management
practices pertaining to (a) rapid growth and significant concentrations of CRE and ADC loans, (b) loan
underwriting and credit administration, and (c) heavy reliance on non-core funding sources, particularly
brokered deposits. Although examiners expressed concern about Cape Fear’s risk management practices
in the years preceding the institution’s failure, the actions taken by Cape Fear’s Board and management to
address these concerns were not timely or adequate in preventing the institution’s failure.

When the North Carolina real estate market began to deteriorate in 2007, weaknesses in Cape Fear’s risk
management practices quickly translated into a significant decline in the quality of the institution’s loan
portfolio. The associated losses and provisions depleted Cape Fear’s capital and earnings and
significantly impaired the institution’s liquidity. Further, in April 2009, Cape Fear’s parent company
notified the Securities and Exchange Commission that substantial doubt existed regarding the institution’s
ability to continue as a going concern. The notification generated negative media attention and resulted in
substantial depositor withdrawals, placing additional pressure on the institution’s liquidity and capital.
The North Carolina Commissioner of Banks closed Cape Fear due to its deficient liquidity position.

FDIC’s Supervision of Cape Fear

The FDIC, in conjunction with the North Carolina Commissioner of Banks, provided supervision of Cape
Fear through regular on-site risk management examinations, periodic visitations, and certain off-site
monitoring procedures. The FDIC also pursued three informal enforcement actions and one formal



                                 To view the full report, go to www.fdicig.gov.
   Executive Summary                  Material Loss Review of Cape Fear Bank,
                                      Wilmington, North Carolina
                                                                                        Report No. MLR-10-002
                                                                                                 October 2009

enforcement action to address weak risk management practices identified by examiners. In addition, the
FDIC performed daily monitoring of Cape Fear’s liquidity position in the days preceding the institution’s
failure. Through its supervisory efforts, the FDIC identified risks in Cape Fear’s operations and brought
these risks to the attention of the institution’s Board and management. These risks included weak
management practices pertaining to the institution’s rapid loan growth, credit concentrations, loan
underwriting and credit administration, and reliance on non-core funding sources.

In retrospect, the FDIC could have taken stronger supervisory action based on the risks identified during
the April 2006 examination. At that time, Cape Fear had a high risk profile. The institution had
significant concentrations in CRE and ADC loans (which are historically vulnerable to economic
downturns), weak loan underwriting and credit administration practices, and a growing reliance on non-
core funding sources. The FDIC could have pursued an informal enforcement action, such as a
Memorandum of Understanding, that required Cape Fear’s Board and management to commit to a plan
and timeline for addressing the key risks identified during the examination. Stronger supervisory action
at that time may have influenced Cape Fear’s Board and management to take more timely and adequate
action to address examiner concerns, thereby mitigating, to some extent, the losses incurred by the DIF.

With respect to PCA, we concluded that the FDIC had properly implemented applicable PCA provisions
of section 38 based on the supervisory actions taken for Cape Fear. However, PCA’s effectiveness in
mitigating losses to the DIF was limited because PCA did not require action until the institution was at
serious risk of failure. Based on information contained in Cape Fear’s Call Reports, the institution fell
from well capitalized to adequately capitalized for PCA purposes on September 30, 2008 and remained
adequately capitalized through the end of 2008. However, examiners concluded during the October 2008
examination that, given the high-risk profile of Cape Fear, its capital levels were “critically deficient” and
the probability of the institution’s failure was high.

Management Response

On October 22, 2009, the Director, DSC, provided a written response to a draft of this report. The
response is provided in its entirety as Appendix 4 of this report. In its response, DSC reiterated the OIG’s
conclusions regarding the causes of Cape Fear’s failure. Regarding our assessment of FDIC’s supervision
of Cape Fear, DSC cited several supervisory activities, discussed in our report, that were taken to address
key risks at the institution prior to its failure. In its response, DSC also recognized that strong supervisory
attention is necessary for institutions like Cape Fear that have high CRE and ADC concentrations
supported by volatile funding sources. Accordingly, DSC has issued updated guidance reminding
examiners to take appropriate action when such risks are imprudently managed.




                                  To view the full report, go to www.fdicig.gov.
                                Contents
                                                                       Page
Background                                                               2

Causes of Failure and Material Loss                                      2
  Rapid Loan Growth                                                      3
  Controls to Manage Risks Associated with Loan Concentrations           4
  Loan Underwriting and Credit Administration                            6
  Reliance on Non-Core Funding                                           6

The FDIC’s Supervision of Cape Fear                                      8
   Supervisory History                                                   8
   Supervisory Response to Key Risks at Cape Fear                       10
   Implementation of PCA                                                12

Corporation Comments                                                    13

Appendices
  1. Objectives, Scope, and Methodology                                 14
  2. Glossary of Terms                                                  16
  3. Acronyms                                                           17
  4. Corporation Comments                                               18

Tables
   1. Financial Condition of Cape Fear                                   2
   2. On-site Examinations and Visitations of Cape Fear                  9
   3. Cape Fear’s Actions to Address Selected Key Risks Identified      11
      During the April 2006 Examination
   4. Cape Fear’s Capital Levels Relative to PCA Thresholds for Well    13
      Capitalized Institutions

Figures
   1. Annual Growth of Cape Fear’s Loan Portfolio Relative to Peers      3
   2. Cape Fear’s Loan Mix as of March 31, 2009                          4
   3. Cape Fear’s ADC Loan Concentrations Relative to Peers              5
   4. Cape Fear’s Use of Brokered Deposits Relative to Peers             7
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                           Office of Inspector General


DATE:                                           October 23, 2009

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews


SUBJECT:                                        Material Loss Review of Cape Fear Bank, Wilmington,
                                                North Carolina (Report Number MLR-10-002)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
Cape Fear Bank (Cape Fear), Wilmington, North Carolina. The North Carolina Office of
the Commissioner of Banks (North Carolina Commissioner) closed Cape Fear on
April 10, 2009 and named the FDIC as receiver. On April 23, 2009, the FDIC notified
the OIG that Cape Fear’s total assets at closing were $466.8 million and that the
estimated loss to the Deposit Insurance Fund (DIF) was $131 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to: (1) determine the causes of Cape
Fear’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision2 of Cape Fear, including the FDIC’s implementation of the PCA provisions
of section 38 of the FDI Act. This report presents our analysis of Cape Fear’s failure and
the FDIC’s efforts to ensure that Cape Fear’s Board of Directors (Board) and
management operated the institution in a safe and sound manner. The report does not
1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
contain formal recommendations. Instead, as major causes, trends, and common
characteristics of financial institution failures are identified in our material loss reviews,
we will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of DSC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of key terms and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
Cape Fear was established in June 1998 as a state-chartered non-member institution.3
The institution had eight locations, consisting of a main office in Wilmington, North
Carolina, and seven full-service branches in the southeast area of North Carolina. The
majority of Cape Fear’s lending was in real estate, particularly commercial real estate
(CRE) and acquisition, development, and construction (ADC), within its local market
area. Cape Fear was wholly owned by the Cape Fear Bank Corporation, a publicly traded
company. Collectively, the institution’s Board controlled approximately 4 percent of the
Cape Fear Bank Corporation. Cape Fear had no other affiliates or subsidiaries. Table 1
provides details on Cape Fear’s financial condition as of March 31, 2009 and for the 5
preceding calendar years.

Table 1: Financial Condition of Cape Fear
Financial Measure          31-Mar-09     31-Dec-08     31-Dec-07     31-Dec-06     31-Dec-05     31-Dec-04
Total Assets ($000s)        $492,418      $473,112      $463,944      $424,402      $342,725      $201,755
Total Loans ($000s)         $402,820      $401,488      $387,239      $354,616      $284,175      $170,202
Total Deposits ($000s)      $385,039      $390,507      $370,678      $334,409      $278,386      $162,399
Net Loan Growth Rate         1.91%         4.63%         10.62%        20.01%        71.48%        56.57%
Net Income (Loss)           ($1,851)      ($5,175)       $1,946        $2,813        $1,777        $1,148
($000s)
Source: OIG Analysis of Uniform Bank Performance Reports (UBPR) for Cape Fear.



Causes of Failure and Material Loss
Cape Fear failed because its Board and management did not implement effective risk
management practices pertaining to (a) rapid growth and significant concentrations of
CRE and ADC loans, (b) loan underwriting and credit administration, and (c) heavy
reliance on non-core funding sources, particularly brokered deposits. Examiners
expressed concern about Cape Fear’s risk management practices in the years preceding
the institution’s failure. However, the actions taken by Cape Fear’s Board and
management to address these concerns were not timely or adequate in preventing the
institution’s failure.
3
 Cape Fear opened as the Bank of Wilmington on June 22, 1998. The institution changed its name to Cape
Fear in October 2006.


                                                  2
When the North Carolina real estate market began to deteriorate in 2007, weaknesses in
Cape Fear’s risk management practices quickly translated into a significant decline in the
quality of the institution’s loan portfolio. The associated losses and provisions depleted
Cape Fear’s capital and earnings and significantly impaired the institution’s liquidity.
Further, in April 2009, Cape Fear’s parent company notified the Securities and Exchange
Commission that substantial doubt existed regarding the institution’s ability to continue
as a going concern. The notification generated negative media attention and resulted in
substantial depositor withdrawals, placing additional pressure on the institution’s
liquidity and capital. The North Carolina Commissioner closed Cape Fear on April 10,
2009 due to its deficient liquidity position.

Rapid Loan Growth

During 2004 and 2005, Cape Fear grew its loan portfolio at a pace that significantly
exceeded both the institution’s peer group and its own internal growth plans. During
these years, the institution ranked among the 96th and 97th percentile of its peer group for
asset growth. Figure 1 illustrates the rapid growth of Cape Fear’s loan portfolio relative
to its peer group during these years.

Figure 1: Annual Growth of Cape Fear’s Loan Portfolio Relative to Peers

                     80
                     70
   Growth Rate (%)




                     60
                     50
                                                                                             Cape Fear
                     40
                                                                                             Peers
                     30
                     20
                     10
                      0
                          Dec-03   Dec-04   Dec-05   Dec-06       Dec-07   Dec-08   Mar-09
                                                     Year


 Source: OIG Analysis of UBPRs for Cape Fear.


Examiners noted the rapid growth of Cape Fear’s loan portfolio during the February 2005
examination but did not express concern at that time because the institution’s risk
management policies and practices were considered adequate. During the April 2006
examination, examiners noted that although Cape Fear’s financial condition was
generally satisfactory, management had not adequately planned for or monitored the
growth of its loan portfolio. Among other things, Cape Fear had not developed a written
strategic plan to help manage the affairs of the institution. Although management
developed a written strategic plan in 2007, the plan was of limited benefit because it was
not sufficiently detailed. Additionally, growth in the institution’s loan portfolio,
principally concentrated in ADC loans, had already occurred. Cape Fear’s Board adopted
a revised strategic plan on January 31, 2008. However, examiners again concluded
during the October 2008 examination that the plan was inadequate.



                                                              3
Controls to Manage Risks Associated with Loan Concentrations

At the time of its failure, approximately 95 percent of Cape Fear’s loan portfolio was in
real estate. Included within the loan portfolio were significant concentrations of high-risk
loans, including CRE and ADC loans. Figure 2 summarizes Cape Fear’s loan mix based
on its Consolidated Reports of Condition and Income (Call Report) for the quarter ending
March 31, 2009.

    Figure 2: Cape Fear’s Loan Mix as of March 31, 2009

                           4.8%
                                                                      Construction and Development
                        2.1%                                          (ADC)
                   11.0%                                              CRE - Nonfarm/Nonresidential
                                              36.0%
                                                                      1-4 Family Residential - excluding
                                                                      Home Equity Line of Credit
                15.1%
                                                                      Home Equity Loans

                                                                      Other Real Estate Loans

                                                                      Non-Real Estate Loans
                               31.1%



    Source: OIG Analysis of UBPRs for Cape Fear.


The FDIC’s December 2006 guidance, entitled Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, recognizes that there are substantial
risks posed by CRE concentrations, and in particular ADC concentrations. Such risks
include unanticipated earnings and capital volatility during a sustained downturn in the
real estate market. The December 2006 guidance defines institutions with significant
CRE concentrations as those institutions reporting loans for construction, land
development, and other land (i.e., ADC) representing 100 percent or more of total capital;
or institutions reporting total CRE loans representing 300 percent or more of total capital
where the outstanding balance of CRE has increased by 50 percent or more during the
prior 36 months. Due to the risks associated with CRE and ADC lending, regulators
consider institutions with significant CRE and ADC concentrations to be of greater
supervisory concern.

At the close of 2003, Cape Fear’s CRE and ADC loans represented 387 and 143 percent
of the institution’s total capital, respectively. By December 31, 2008, Cape Fear’s CRE
and ADC loans had swelled to 828 and 436 percent of total capital, respectively.4 Figure
3 illustrates the rapid growth in Cape Fear’s ADC loan concentrations compared to its
peers.



4
 It should be noted that much of the increase in Cape Fear’s CRE and ADC loan concentrations during
2007 and beyond was the result of a decline in capital rather than an increase in loans.


                                                   4
 Figure 3: Cape Fear’s ADC Loan Concentrations Relative to Peers

   ADC Loans/Total Capital (%)
                                 500

                                 400

                                 300                                                                    Cape Fear
                                 200                                                                    Peers

                                 100

                                  0
                                       Dec-03   Dec-04   Dec-05   Dec-06     Dec-07   Dec-08   Mar-09
                                                                  Year

 Source: OIG Analysis of UBPRs for Cape Fear.

Although examiners noted an ADC concentration in Cape Fear’s loan portfolio during the
2003 and 2005 examinations, the examiners concluded that the institution’s monitoring
practices were acceptable at that time. During the 2006 examination, examiners noted
that the institution’s CRE and ADC concentrations had increased measurably and that
Cape Fear did not have appropriate controls to manage the risks associated with the
concentrations. Specifically, the institution had not established limits on its loan
concentrations; developed goals to diversify its loan portfolio; or developed specific
strategies or procedures for assessing, managing, or monitoring its concentrations. The
institution had also not established any limits on its other high-risk loan types or
practices, such as interest-only loans, speculative land-carry notes, unsecured credits, or
loans with multiple renewals or extensions. As of March 31, 2006, almost half of Cape
Fear’s loan portfolio required interest-only payments. Such loans are considered high-
risk because they do not require principal payments and can, therefore, mask a
borrower’s inability to ultimately repay the loan.

By the October 2008 examination, the financial condition of the institution had
deteriorated significantly. At that time, the institution had $48.3 million in adversely
classified assets, representing 120 percent of Tier 1 Capital and Reserves. Of the
$48.3 million, $39.8 million (or 83 percent) consisted of CRE loans, and the majority of
these CRE loans ($34.1 million, or 71 percent) were ADC loans. Following a change in
Board membership, Cape Fear established limits on its CRE concentrations on
October 30, 2008, to prevent further growth in the institution’s CRE concentrations.
However, the limits were not particularly beneficial because they reflected the
institution’s elevated CRE positions and no plans existed to reduce the CRE
concentrations. Further, nearly half of Cape Fear’s loan portfolio continued to require
interest-only payments. Additionally, the risks associated with Cape Fear’s loan
concentrations were exacerbated by weak loan underwriting and credit administration
practices.




                                                                         5
Loan Underwriting and Credit Administration

Weaknesses in Cape Fear’s loan underwriting and credit administration practices were a
contributing factor to the asset quality problems that developed in the institution’s loan
portfolio when the North Carolina real estate market began to deteriorate in 2007.
Examiners began raising concerns about Cape Fear’s credit administration practices
during the 2006 examination. Among other things, examiners commented that:

   •   The institution’s loan policy did not meet the needs of the institution. For
       example, the policy provided only general underwriting parameters for unsecured
       commercial loans and did not address amortization and repayment ability
       considerations.

   •   Policies and procedures for interest-only and unsecured lending needed to be
       reviewed and strengthened.

   •   Loans originated as exceptions to policy were not being tracked and reported to
       the Board.

   •   Management was not monitoring the volume of, or tracking renewal for, high-risk
       loans, such as interest-only loans and unsecured loans.

Subsequent examinations of Cape Fear identified weak underwriting practices. Such
practices included, but were not limited to, the capitalization of interest for loan renewals,
a failure to establish and enforce appropriate loan repayment programs, inadequate
analysis of borrower repayment capabilities, liberal renewal and extension practices,
inadequate borrower equity in real estate projects, over-reliance on collateral as the
primary repayment source, and unsupported real estate appraisals.

Reliance on Non-Core Funding

In the years preceding its failure, Cape Fear became increasingly dependent on non-core
funding sources, particularly brokered deposits, to fund its loan growth and maintain
adequate liquidity. When properly managed, such funding sources offer important
benefits, such as ready access to funding in national markets when core deposit growth in
local markets lags behind planned asset growth. However, non-core funding sources also
present potential risks, such as higher costs and increased volatility. According to the
DSC Risk Management Manual of Examination Policies, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to
these funds may become limited during distressed financial or market conditions. Under
such circumstances, institutions could be required to sell assets at a loss in order to fund
deposit withdrawals and other liquidity needs.




                                              6
Cape Fear’s net non-core funding dependence ratio5 grew steadily in the years preceding
its failure. By December 2007, Cape Fear’s net non-core funding dependence ratio was
in the 94th percentile for its peer group. The elevated ratio was driven, in part, by Cape
Fear’s decision in 2004 to begin using brokered deposits to grow its loan portfolio.
Figure 4 illustrates Cape Fear’s use of brokered deposits relative to its peers. By the
close of 2008, brokered deposits represented approximately 35 percent of Cape Fear’s
total deposit base.

    Figure 4: Cape Fear’s Use of Brokered Deposits Relative to Peers
      Brokered/Total Deposits (%)




                                    40
                                    35
                                    30
                                    25
                                                                                            Cape Fear
                                    20
                                                                                            Peers
                                    15
                                    10
                                     5
                                     0
                                         Dec-03 Dec-04 Dec-05 Dec-06 Dec-07 Dec-08 Mar-09
                                                              Year

    Source: OIG Analysis of UBPRs for Cape Fear.

During 2006 and 2007, examiners determined that Cape Fear’s liquidity position was
minimally adequate given the institution’s heavy reliance on non-core funding. In
addition, Cape Fear’s use of non-core funding was increasing the cost of the institution’s
funds and placing downward pressure on its earnings. As of March 31, 2006, Cape Fear
was paying 95 basis points more than its peer average for interest-bearing funds, placing
the institution in the 94th percentile of peers for the cost of funds. In an effort to generate
growth in local core deposits and help alleviate its growing dependence on non-core
funding sources, Cape Fear embarked on an aggressive expansion of its branch locations
in 2006 and 2007. However, the new branches did not attract sufficient local deposits to
reduce Cape Fear’s dependence on non-core funding sources, and the cost of the branch
expansion weighed heavily on earnings.

Based on information contained in its Call Report for the quarter ending September 30,
2008, Cape Fear fell from well capitalized to adequately capitalized for PCA purposes.
Part 337.6 of the FDIC Rules and Regulations prohibits adequately capitalized
institutions from accepting, renewing, or rolling over brokered deposits without a waiver
from the FDIC. Cape Fear submitted a brokered deposit waiver application on


5
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress.


                                                                        7
October 31, 2008. At that time, the institution had over $40 million in brokered deposits
that were scheduled to mature by March 31, 2009. Cape Fear subsequently withdrew its
brokered deposit waiver application on December 23, 2008 because it was determined
that other sources of liquidity were available to the institution at that time. Although
Cape Fear had a funds management policy describing the factors that management should
consider during a liquidity crisis, the institution did not have a well-defined contingency
funding plan. As the institution’s financial condition deteriorated, Cape Fear’s liquidity
position became increasingly strained.


The FDIC’s Supervision of Cape Fear
Through its supervisory efforts, the FDIC identified risks in Cape Fear’s operations and
brought these risks to the attention of the institution’s Board and management through
regular discussions and correspondence, Reports of Examination (ROEs), and informal
and formal enforcement actions. Key risks identified by examiners included weak risk
management practices pertaining to the institution’s rapid loan growth, ADC and CRE
loan concentrations, loan underwriting and credit administration functions, and reliance
on non-core funding sources. Although the FDIC’s actions in this regard were positive,
the FDIC could have taken stronger supervisory action based on the risks that it identified
during the April 2006 examination. Stronger supervisory action following the April 2006
examination may have influenced Cape Fear’s Board and management to take more
timely and adequate action to address examiner concerns, thereby mitigating, to some
extent, the losses incurred by the DIF.

Supervisory History

The FDIC, in conjunction with the North Carolina Commissioner, provided supervision
of Cape Fear through regular on-site risk management examinations, periodic visitations,
and certain off-site monitoring procedures. In addition, the FDIC performed daily
monitoring of Cape Fear’s liquidity position in the days preceding the institution’s
failure. Table 2 summarizes key information pertaining to the on-site risk management
examinations and visitations that the FDIC and North Carolina Commissioner conducted
of Cape Fear from 2002 until the institution failed, including the institution's supervisory
ratings.6




6
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                    8
Table 2: On-site Examinations and Visitations of Cape Fear
                                        Supervisory        Informal or
                                          Ratings         Formal Action
    Date           On-Site Effort         (UFIRS)            Taken*           Date Action Lifted
 07/08/2002     Joint Examination         333332/3         BBR 11/21/02            8/27/03
 06/23/2003     Joint Examination          222222/2             None
 02/14/2005     State Examination          122222/2             None
 04/19/2006     FDIC Examination           223322/2        BBR** 9/21/06           12/18/08
 12/11/2006     FDIC Visitation           No Rating             N/A
 05/08/2007     FDIC Visitation           No Rating             N/A
                                                                              Replaced with C&D
 08/06/2007     State Examination          223322/3         BBR 9/26/07
                                                                                   2/24/09
 02/05/2008     Joint Visitation          No Rating             N/A
 10/06/2008     Joint Examination          554454/5         C&D 2/24/09             4/10/09
 04/07/2009     FDIC Visitation***        No Rating             N/A
Source: FDIC’s Virtual Supervisory Information on the Net system and ROEs for Cape Fear.
* Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memorandums of
Understanding (MOU). Formal enforcement actions often take the form of Cease and Desist (C&D) Orders,
but under severe circumstances can also take the form of insurance termination proceedings.
** As described below, this BBR was limited to Information Technology (IT) security issues.
*** This visitation focused on monitoring the institution’s liquidity position.

As shown in Table 2, four visitations were conducted at Cape Fear from 2006 to 2009 in
addition to the required risk management examinations. The purposes of these visitations
were as follows:

    •   December 2006 and May 2007: Determine the progress that Cape Fear was
        making in addressing the IT security control deficiencies discussed in the
        September 2006 BBR. As part of these visitations, FDIC examiners also assessed
        Cape Fear’s efforts to address the concerns raised in the April 2006 examination
        related to the extent of, and controls over, CRE and ADC concentrations.

    •   February 2008: Follow up on Cape Fear’s progress in addressing the weak risk
        management practices discussed in the September 2007 BBR.

    •   April 2009: Monitor Cape Fear’s liquidity position.

The FDIC and North Carolina Commissioner pursued a total of three informal
enforcement actions and one formal enforcement action to address weak risk
management practices identified by the examiners. A brief description of these actions
follows.

    •   November 2002 BBR. In response to the July 2002 joint examination, this BBR
        required Cape Fear’s management to take such actions as strengthening its loan
        policy to address the acquisition and analysis of financial information on
        borrowers, documenting credit decisions, performing real estate appraisals, and
        making ADC loans; improving the institution’s loan grading system; and



                                                  9
        developing a plan to comply with the Interagency Guidelines for Real Estate
        Lending Policies.

   •    September 2006 BBR. This BBR focused on addressing IT security control
        deficiencies and did not address financial matters identified in the April 2006
        examination.

   •    September 2007 BBR. As a result of the August 2007 examination, this BBR
        required Cape Fear’s management to take various actions, such as developing a
        comprehensive strategic plan, documenting an acceptable methodology for
        determining the adequacy of the loan loss reserve, improving the institution’s loan
        grading and review system, setting specific limits for CRE lending, and adopting
        a formal loan policy to address how the institution would manage all types of
        loans in its portfolio.

   •    February 2009 C&D. This corrective action was taken in response to the
        October 2008 examination. Among other things, the C&D directed Cape Fear’s
        Board and management to implement a written funds management policy;
        discontinue the acceptance, renewal, or roll over of brokered deposits unless a
        waiver was obtained from the FDIC; reduce undue loan concentrations, including
        concentrations in CRE; implement written lending and collection policies; and
        formulate a written strategic plan.

With regard to offsite monitoring, the FDIC’s systems did not identify Cape Fear’s rapid
growth as a supervisory concern because, according to FDIC officials, the systems were
designed to flag the top 2 percent of rapidly growing institutions. As discussed earlier,
Cape Fear’s growth at its height in 2004 and 2005 was in the 96th and 97th percentile of
its peer group. However, as detailed below, the FDIC’s on-site examinations and
numerous visitations identified key risks in Cape Fear’s operations years before its
failure.

Supervisory Response to Key Risks at Cape Fear

The FDIC could have taken stronger supervisory action based on the risks that examiners
identified during the April 2006 examination. The results of that examination indicated
that Cape Fear had a high-risk profile. Among other things, the institution had not
implemented adequate risk management practices or taken corrective action to effectively
manage key risks discussed earlier in the report, including:

   •    Rapid growth in the loan portfolio.

   •    Significant concentrations of CRE and ADC loans.

   •    Weaknesses in loan underwriting and credit administration.

    •   Heavy reliance on non-core funding sources.


                                              10
    •    Weaknesses in the internal risk grading of loans and the Allowance for Loan and
         Lease Losses (ALLL) methodology.

Stronger supervisory action may have included an informal enforcement action, such as
an MOU, requiring Cape Fear’s Board and management to commit to a plan and timeline
for addressing the key risks identified by examiners. Examiners with whom we spoke
indicated that they contemplated pursuing an informal enforcement action based on the
results of April 2006 examination. In retrospect, such an action may have been prudent
because the actions that the institution took in response to the results of the examination
were generally not timely or adequate, as summarized in Table 3.

Table 3: Cape Fear’s Actions to Address Selected Key Risks Identified During the
         April 2006 Examination
 Concerns Identified in        Actions Taken by Cape Fear’s Board and Management
 the April 2006
 Examination
 Management had not            Cape Fear did not develop a written strategic plan until 2007, after its
 adopted a written strategic   critical growth period. Examiners concluded that the plan was general
 plan to help manage the       in nature and of limited value. The Board adopted a revised strategic
 institution’s rapid growth.   plan on January 31, 2008. Examiners, however, criticized the plan as
                               flawed during the October 2008 examination. Cape Fear was working
                               to revise its strategic plan at the close of the October 2008 examination.
 Management did not have       The Board did not establish specific CRE concentration limits until
 specific limits regarding     October 30, 2008. However, examiners concluded that these limits
 credit concentrations or      were of negligible value because they mirrored the institution’s elevated
 goals to diversify the loan   CRE positions. Further, the October 2008 ROE indicated that plans did
 portfolio.                    not exist to reduce the institution’s CRE positions.
 Loan underwriting and         Examiners noted in the August 2007 examination that although
 credit administration         management had improved the tracking of its CRE loans, many of the
 practices needed              loan underwriting and credit administration weaknesses identified in the
 improvement.                  April 2006 examination had not been addressed. Although the
                               institution developed comprehensive guidance for its lending function
                               in July 2008, the quality of the loan portfolio was already deteriorating.
 Liquidity was minimally       Although Cape Fear expanded its branches during 2006 and 2007 in an
 adequate due to a growing     effort to increase its core deposit base, the effort did not result in a
 reliance on non-core          meaningful decline in the institution’s reliance on non-core funding
 funding sources.              sources. Cape Fear’s net non-core funding dependence ratio increased
                               in the years following the April 2006 examination. In addition,
                               examiners noted during the October 2008 examination that although
                               management had taken some contingency funding planning measures, it
                               had not developed a well-defined contingency funding plan.
 The institution’s internal    Examiners noted in the August 2007 examination that risk grade
 risk grading system and       assignments and the ALLL methodology continued to need
 the ALLL methodology          improvement. The ALLL was also cited as a material weakness in the
 did not capture key risk      March 26, 2008 audit report on the Cape Fear Bank Corporation’s 2007
 characteristics of the loan   consolidated financial statements. Although Cape Fear updated its loan
 portfolio and needed          grading and review system and ALLL methodology in July 2008,
 improvement.                  examiners noted continued weaknesses in both areas during the October
                               2008 examination.
Source: OIG Analysis of ROEs for Cape Fear.




                                                  11
To its credit, the FDIC conducted on-site visitations of Cape Fear in December 2006 and
May 2007, during which it assessed Cape Fear’s progress in addressing examiner
concerns raised in the April 2006 examination. Generally, these visitations found that the
institution was making progress in addressing prior examiner concerns. Of particular
interest, examiners noted that overall supervision of the institution had improved, asset
and loan growth had slowed, management had begun reporting more detailed loan
information to the Board, the ALLL methodology had been improved, and a full-time
internal auditor had been hired. However, examiners noted that, among other things, a
new loan policy and strategic plan had been drafted, but not yet finalized. In addition,
significant loan concentrations continued to exist and the institution’s recently initiated
branch expansion was not generating enough core deposits to offset its continued reliance
on non-core funding sources, including brokered deposits.

The FDIC also conducted a visitation in February 2008 to assess Cape Fear’s progress in
addressing the weak risk management practices discussed in the September 2007 BBR.
Although not required, it may have been prudent for the FDIC to have requested Cape
Fear to provide regular status reports describing the institution’s progress in addressing
the provisions of the September 2007 BBR. Requiring status reports would have further
elevated supervisory attention to key risks in the institution. Finally, we noted that the
FDIC issued a C&D on February 24, 2009, based on the results of the October 2008
examination. Although a C&D was appropriate for the risks that were identified during
the October 2008 examination, the ultimate viability of the institution was already in
serious question by the time the C&D was issued.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions of section 38. However, PCA’s effectiveness in mitigating losses to the DIF
was limited because PCA did not require action until the institution was at serious risk of
failure.

In the case of Cape Fear, capital was a lagging indicator of the institution’s financial
health. Based on information contained in Cape Fear’s Call Reports, the institution fell
from well capitalized to adequately capitalized for PCA purposes on September 30, 2008,
and remained adequately capitalized through the end of 2008.7 Table 4 illustrates Cape
Fear’s capital levels relative to the PCA thresholds for well capitalized institutions during
this period. However, examiners concluded during the October 2008 examination that,
given the high-risk profile of Cape Fear, its capital levels were “critically deficient,” and
the probability of the institution’s failure was high.

7
 Section 38 of the FDI Act and 57 Federal Register 44866-01 defines Adequately Capitalized as Total Risk
Based Capital of 8 percent or more, Tier 1 Risk Based Capital of 4 percent or more, and Leverage Capital
of 4 percent or more.


                                                  12
Table 4: Cape Fear’s Capital Levels Relative to PCA Thresholds for Well
         Capitalized Institutions
 Capital Ratio               PCA Threshold             September 30, 2008       December 31, 2008
 Leverage Capital               5% or more                   6.76%                   5.66%
 Tier 1 Risk-Based Capital      6% or more                   7.94%                   6.74%

 Total Risk Based Capital        10% or more                  9.21%                     8.01%
Source: OIG Analysis of UBPRs for Cape Fear and Section 38 of the FDI Act and 57 Federal Register
44866-01.

Consistent with the PCA provisions of section 38, the FDIC notified Cape Fear on
November 20, 2008 that, based on information contained in the institution’s Call Report
for the quarter ending September 30, 2008, the institution was considered adequately
capitalized for purposes of Part 325 of the FDIC Rules and Regulations. The FDIC’s
notification included a reminder of the requirements that Cape Fear had become subject
to based on its PCA capital category. Such requirements included, among other things, a
prohibition on the acceptance, renewal, or roll-over of brokered deposits without a waiver
from the FDIC. The November 2008 notification also included a reminder that, pursuant
to Part 337.6 of the FDIC Rules and Regulations, adequately capitalized institutions are
subject to certain restrictions on the interest rates that can be paid on deposits. The FDIC
provided Cape Fear with a similar notification that the institution was adequately
capitalized on February 12, 2009, based on information contained in the institution’s Call
Report for the quarter ending December 31, 2008.


Corporation Comments
We issued a draft of this report on October 1, 2009. We subsequently met with
representatives of DSC to discuss the results of our review. Based on our discussion, we
made certain changes to the report that we deemed appropriate. On October 22, 2009, the
Director, DSC, provided a written response to the draft report. The response is provided
in its entirety as Appendix 4 of this report.

In its response, DSC reiterated the OIG’s conclusions regarding the causes of Cape Fear’s
failure. Regarding our assessment of the FDIC’s supervision of Cape Fear, DSC cited
several supervisory activities, discussed in our report, that were undertaken to address
key risks at the institution prior to its failure. In its response, DSC also recognized that
strong supervisory attention is necessary for institutions like Cape Fear that have high
CRE and ADC concentrations supported by volatile funding sources. Accordingly, DSC
has issued updated guidance reminding examiners to take appropriate action when such
risks are imprudently managed.




                                                  13
                                                                               Appendix 1

                      Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of Cape Fear’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of Cape Fear,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from May 2009 to October 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an assessment of Cape Fear’s operations from March 31,
2002 until the institution’s failure on April 10, 2009. Our review also entailed an
evaluation of the regulatory supervision of the institution during the same period.

To accomplish our objectives, we performed the following procedures and techniques:

     •   Analyzed examination and visitation reports prepared by the FDIC and North
         Carolina Commissioner from July 2002 through April 2009.

     •   Reviewed the following information:

           •   Financial institution data and correspondence maintained in DSC’s Atlanta
               Regional Office (ARO) and Raleigh, North Carolina, Field Office.

           •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the institution’s closure and records maintained by DRR
               at the bank’s former location in Wilmington, North Carolina.

           •   Working papers and reports prepared by the institution’s external auditor,
               Dixon Hughes, at its offices in Raleigh, North Carolina.



                                              14
                                                                              Appendix 1

                     Objectives, Scope, and Methodology


           •   Relevant FDIC policies, procedures, and guidelines.

     •   Interviewed the FDIC officials having supervisory responsibilities pertaining to
         Cape Fear, including:

           •   DSC examination staff in the Washington, D.C. office, ARO, and Raleigh,
               North Carolina, Field Office.

           •   DRR personnel in the Dallas Regional Office.

     •   Met with officials from the North Carolina Office of the Commissioner of Banks
         in Raleigh, North Carolina, to obtain their perspective on the institution’s
         supervision and examinations and to discuss relevant state banking laws and other
         activities related to the state’s supervision of the institution.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance With Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of examiners to obtain an understanding of Cape Fear’s
management controls pertaining to the causes of failure and material loss as discussed in
the body of this report. We obtained data from various FDIC systems but determined that
information system controls were not significant to the audit objectives and, therefore,
did not evaluate the effectiveness of information system controls. We relied on our
analysis of information from various sources, including ROEs, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests are discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.



                                             15
                                                                                          Appendix 2

                                   Glossary of Terms

Term                   Definition
Adversely Classified   Assets subject to criticism and/or comment in an examination report. Adversely
Assets                 classified assets are allocated on the basis of risk (lowest to highest) into three
                       categories: Substandard, Doubtful, and Loss.
Allowance for Loan     Federally insured depository institutions must maintain an ALLL that is
and Lease Losses       adequate to absorb the estimated loan losses associated with the loan and lease
(ALLL)                 portfolio (including all binding commitments to lend). To the extent not
                       provided for in a separate liability account, the ALLL should also be sufficient
                       to absorb estimated loan losses associated with off-balance sheet loan
                       instruments such as standby letters of credit.
Bank Board             A Bank Board Resolution is an informal commitment adopted by a financial
Resolution (BBR)       institution’s Board of Directors (often at the request of the FDIC) directing the
                       institution’s personnel to take corrective action regarding specific noted
                       deficiencies. A BBR may also be used as a tool to strengthen and monitor the
                       institution’s progress with regard to a particular component rating or activity.
Call Report            Consolidated Reports of Condition and Income (also known as the Call Report)
                       are reports that are required to be filed by every national bank, state member
                       bank, and insured nonmember bank pursuant to the Federal Deposit Insurance
                       Act. These reports are used to calculate deposit insurance assessments and
                       monitor the condition, performance, and risk profile of individual banks and the
                       banking industry.
Cease and Desist       A formal enforcement action issued by financial institution regulators to a bank
Order (C&D)            or affiliated party to stop an unsafe or unsound practice or violation. A C&D
                       may be terminated when the bank’s condition has significantly improved and
                       the action is no longer needed or the bank has materially complied with its
                       terms.
Concentration          A concentration is a significantly large volume of economically related assets
                       that an institution has advanced or committed to a certain industry, person,
                       entity, or affiliated group. These assets may, in the aggregate, present a
                       substantial risk to the safety and soundness of the institution.
Memorandum of          A Memorandum of Understanding is an informal agreement between the
Understanding          institution and the FDIC, which is signed by both parties. The State Authority
(MOU)                  may also be party to the agreement. MOUs are designed to address and correct
                       identified weaknesses in an institution’s condition.
Prompt Corrective      The purpose of PCA is to resolve the problems of insured depository institutions
Action (PCA)           at the least possible long-term cost to the DIF. Part 325 of the FDIC Rules and
                       Regulations, 12 Code of Federal Regulations, section 325.101, et. seq.
                       implements section 38, Prompt Corrective Action, of the FDI Act, 12 United
                       States Code section 1831(o), by establishing a framework for taking prompt
                       supervisory actions against insured nonmember banks that are less than
                       adequately capitalized. The following terms are used to describe capital
                       adequacy: Well Capitalized, Adequately Capitalized, Undercapitalized,
                       Significantly Undercapitalized, and Critically Undercapitalized.
Uniform Bank           The UBPR is an analysis of financial institution financial data and ratios that
Performance Report     includes extensive comparisons to peer group performance. The report is
(UBPR)                 produced by the Federal Financial Institutions Examination Council for the use
                       of banking supervisors, bankers, and the general public and is produced
                       quarterly from Call Report data submitted by banks.



                                                  16
                                                                  Appendix 3

                          Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ARO      Atlanta Regional Office
BBR      Bank Board Resolution
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
IT       Information Technology
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                   17
                                                                                                             Appendix 4

                              Corporation Comments



FDIC!
Federal Deposit Insurance Corporation
 550 171h Street NW. Washingon. DC. 2029-999                            Divisio 01 SupeisiOn and Consume Precon

                                                                          October 22, 2009

 MEMORANDUM TO:                      Stephen Beard
                                     Assistant Inspector General for Material Loss Reviews

 FROM:                               Sandra L. Thompson'
                                     Director

 SUBJECT:                            Draft Audit Report Entitled, Material Loss Review of        Cape Fear
                                     Bank, Wilmington, North Carolina
                                     (Assignent No. 2009-039)

Pursuat to Section 38(k) of  the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation's Offce ofInspector General (OIG) conducted a material loss review of
Cape Fear Ban (Cape Fear) which failed on April 10,2009. This memoradum is the response
of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Report

(Report) received on October 1,2009.

The Report concludes that Cape Fear's failure was due to the ineffective risk management
practices of the Board and senior management over its rapid growt in commercial real estate

(CRE) and acquisition, development, and construction (ADC) loans and its growing dependence
on non-core funding sources, particularly brokered deposits. Examiners expressed concern over
Cape Fear's risk management practices; however, the Board and management did not take
adequate or timely actions to implement corrective practices that could have prevented the
failure.

The Report further states that the Nort Carolina real estate market began to deteriorate in 2007
and that Cape Fear's weak risk management practices quickly traslated into a significant
decline in loan portfolio quality. The associated loan losses and provisions depleted Cape Fear's
capital and earnings and impaired liquidity. Further, in April 2009, negative media attention and
its adverse effect on Cape Fear's capital and liquidity grew when the parent company notified the
Securities and Exchange Commission that doubt existed as to the institution's ability to continue
as a going concern. The notification resulted in depositor withdrawals placing additional
pressure on Cape Fear's capital and liquidity.

As part of our supervisory program, examiners conducted on-site risk management
examinations, made periodic visitations, and used certain offsite tools, including personal contact
with ban management, to monitor Cape Fear's condition. Additionally, DSC pursued three
informal corrective actions and one formal enforcement action against Capc Fear to address its
weak risk management practices and performed daily monitoring of
                                                                      its liquidity position in the
days preceding failure. In recognition that strong supervisory attention is necessary for
institutions with high CRE/ADC concentrations and volatile funding sources, such as Cape Fear,
DSC has issued updated guidance reminding examiners to take appropriate action when these
risks are imprudently managed.

Than you for the opportunity to review and comment on thc Draft Audit Report.




                                                       18
